United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

June 10, 2021
#48168-280
Mr. Rigoberto Melero Aguirre
FCI LaTuna
P.O. Box 3000
Anthony, NM 88021-0000
No. 21-50242

In re: Rigoberto Aguirre

Dear Mr. Aguirre,
'28 U.S.C. Section 2244 (b)(3)(E) does not permit review of the
denial of your request to file a successive petition,
We are
taking no action on this document.

Sincerely,
LYLE W. CAYCE, Clerk

0
By:
Monica R. Washington, Deputy Clerk
504-310-7705

Case: 21-50242

^81r

Document: 00515871437

Page: 1

Date Filed: 05/21/2021

fcttcb States Court of appeals;
for tfje Jftftf) Circuit

A True Copy
Certified order issued May 21, 2021

W. CcMjtx
Clerk, tfS. Court of Ap peals, Fifth Circuit

No. 21-50242

United States Court of Appeals
Fifth Circuit

FILED
May 21,2021

In

re:

Rigoberto Melero Aguirre,

Lyle W. Cayce
Clerk
Movant.

Motion for an order authorizing
the United States District Court for the
Western District of Texas to consider
a successive 28 U.S.C. 8 2255 motion

Before HIGGINBOTHAM, SMITH, and ENGELHARDT, Circuit
Judges.

Per Curiam:
Rigoberto Melero Aguirre, federal prisoner # 48168-280, moves for
authorization to file a successive 28 U.S.C. § 2255 motion challenging his
sentence for conspiring to possess with the intent to distribute more than five
kilograms of cocaine. He contends that the district court erroneously relied
on his prior Texas conviction for manufacture or delivery of a controlled
substance to sentence him under the Armed Career Criminal Act (ACCA),
18 U.S.C. S 924(eV to sentence him as a career offender under U.S.S.G.
$ 4B1.1. or to enhance his sentence pursuant to 21 U.S.C. § 851. In support
of his argument, he cites Johnson v. United States, 576 U.S. 591 (2015); Mathis
v. United States, 136 S. Ct. 2243 (2016); Descamps v. United States, 570 U.S.
254 (2013); United States v. Hinkle, 832 F.3d 569 (5th Cir. 2016); and United

t

Case: 21-50242

Document: 00515871437

Page: 2

Date Filed: 05/21/2021

No. 21-50242

States v. Tanksley, 848 F.3d 347 (5th Cir.), supplemented by 854F.3d 284 (5th
Cir. 2017).
Before filing a successive § 2255 motion, Aguirre must obtain this
court’s authorization. .9gg28U.S.C. S 2244(b)(3)(C): § 2255(h). This court
may authorize the filing of a successive § 2255 motion if he makes a prima
facie showing that his motion contains either (1) “newly discovered evidence
that, if proven and viewed in light of the evidence as a whole, would be
sufficient to establish by clear and convincing evidence that no reasonable
factfinder would have found the movant guilty of the offense” or (2) “a new
rule of constitutional law, made retroactive to cases on collateral review by
the Supreme Court, that was previously unavailable.” § 2255(h); see
§ 2244(b)(3)(C); Reyes-Requena v. United States, 243 F.3d 893, 897-99 (5th
Cir. 2001) (recognizing § 2244(b)(3)(C)’s incorporation into § 2255).
Johnson is not applicable to Aguirre’s case because he was not
sentenced under the ACCA. See In re Lampton, 667 F.3d 585, 590 (5th Cir.
2012). Aguirre’s invocation of Hinkle, Tanksley, Mathis, and Descamps is also
unavailing because none of those cases set forth a new rule of constitutional
law made retroactively applicable on collateral review by the Supreme Court.
See In re Lott, 838 F.3d 522r 523 (5th Cir. 2016); In re Jackson, 776 F.3d 292T
296 (5th Cir. 2015); see also In re SparksT 657 F.3d 258T 260-61 f5th Cir. 2011);
In re Tatum, 233 F.3d 857r 859Y5th Cir. 2000).
IT IS ORDERED that Aguirre’s motion for authorization to file a
successive § 2255 motion is DENIED. This is Aguirre’s second motion for
authorization to file a successive § 2255 motion, and one of the claims he now
seeks to raise is essentially identical to the claim he identified in his prior
motion for authorization. Accordingly, Aguirre is WARNED that the filing
of repetitious or frivolous motions for authorization to file successive § 2255
motions will invite the imposition of sanctions, including dismissal, monetary

2

Case 3:09-cr-01267-FM

Document 281

Filed 01/12/2011

Page 1 of 7

AO 245 8 (Rev. 06/05)rW.Q.TX t - Judgment in a Criminal Case

UNITED STATES DISTRICT ©QURT /,/o -//
Western District of Texas
EL PASO DIVISION
UNITED STATES OF AMERICA
Case Number
USM Number
Rigoberto Melero Aguirre, aka: Rigo, TN: RIGOBERTO AGUIRRE MELERO
v.

EP-09-CR-1267-FlJfe))
48168*260

Defendant.

JUDGMENT IN A CRIMINAL CASE
(For Offenses Committed On or After November 1,1987)

The defendant, Rigoberto Melero Aguirre, aka: Rigo, TN: RIGOBERTO AGUIRRE MELERO, was represented by Mary
Stiilinger.
On motion of the United States, the Court has dismissed the Second Superseding Indictment and Counts 12 and 15 of
the Third Superseding Indictment.
The defendant pied guilty to Count 11 of the Third Superseding Indictment on March 26,2010. Accordingly, the
defendant is adjudged guilty of such Count, involving the following offense:

Title & Section

Nature of Offense

Offense Ended

Count

21 U.S.C. 841
and 846

Conspiring to possess with
intent to distribute a quantity
of cocaine > 5 kilograms

02-17*2010

11

As pronounced on January 12,2011, the defendant is sentenced as provided in pages 2 through 7 of this Judgment.
The sentence is imposed pursuant to the Sentencing Reform Act of 1984.
It is further ordered that the defendant shall notify the United States Attorney for this district within 30 days of any
change of name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this
Judgment are fully paid. If ordered to pay restitution, the defendant shall notify the Court and United States Attorney of any
material change in the defendant's economic circumstances.
Signed this the

/£ day of January, 2011.

FRANK MONTALVO
United States District Judge

Case 3:09-cr-01267-FM

Document 281

Filed 01/12/2011

Page 2 of 7

AO 245 a (Rev. D6/05)(W.D.7X.) - Imprisonment
Judgment-Page 2
Defendant: Rigoberto Melero Aguirre, aka: Rigo, TN: RIGOBERTO AGUIRRE MELERO
Case Number EP*09-CR-1267-FM(2)
IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for .a term of
life.
The defendant shall remain in custody pending service of sentence.

RETURN
I have executed this Judgment as follows:

Defendant delivered on
at

to
with a certified copy of this Judgment.
United States Marshal
By
Deputy Marshal

J

Case 3:09-cr-01267-FM

Document 281

Filed 01/12/2011

Page 3 of 7

AO 245 B (Rev. 06/05)(W.Q.TX.) • Supervised Release
Judgment-Page 3
Defendant: Rigoberto Meiero Aguirre, aka: Rigo, TN: RIGOBERTO.AGUIRREMELERO
Case Number: EP-09-CR-1267*FM(2)
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on non-reporting supervised release for a termof life.
While on non-reporting supervised release, the defendant shall comply with the mandatory, standard and if applicable,
the special conditions that have been adopted by this Court as set forth on pages 4 and 5 of this judgment.

Case 3:09-cr-01267-FM

Document 281

Filed 01/12/2011

Page 4 of 7

AO 245 B /Rev. 05/04MW.Q.TX.1 - Supervised Release
JudgmenHPage 4
Defendant: Rigoberto Melero Aguirre, aka: Rigo, TN: RIGOBERTO AGUIRRE MELERO
Case Number: EP-09-CR-1267-FM(2)
CONDITIONS OF SUPERVISION
Mandatory Conditions:
1)

The defendant shall not commit another federal, stale, or local crime.

2)

The defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from any unlawful use of a
controlled substance. The defendant shall submit to one drug test within 15 days of release from imprisonment and at
least two periodic drug tests thereafter, as determined by the court.

Z)

tn supervised release cases only, the defendant must report to the probation office in the district to which the defendant is
released within 72 hours of release from custody of the Bureau of Prisons.

4)

If convicted of a felony, the defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous
weapon.

5)

The defendant shall cooperate in the collection of DNA as directed by the probation officer If the collection of such a
sample is authorized pursuant to section 3 of the DNA Analysis Backlog Elimination Act of 2000 (42 U.S.C. § 14135a).

6)

If convicted of a sexual offense as described in 18 U.S.C. § 4042(c)(4), the defendant shall register with the state sex
offender registration agency in the state v/here the defendant resides, works, or is a student, as directed by the probation
officer.

7)

if convicted of a domestic violence crime as defined in 18 U.S. C. § 3561(b), the defendant shall participate in an approved
program for domestic violence.

8)

If the judgment.imposes a fine or restitution, it is a condition of supervision that the defendant pay in accordance with the
Schedule of Payments sheet of the judgment.

Standard Conditions:
1)

The defendant shall not leave the judicial district without permission of the court or probation officer.

2)

The defendant shall report to the Probation Officer and shall submit a truthful and complete written report within the first
five days of each month.

3)

The defendant shall answer truthfully all inquires by the Probation Officer and follow the instructions of the Probation
Officer.

4)

The defendant shall support his or her dependents and meet other family responsibilities.

5)

The defendant shall work regularly at a lawful occupation unless excused by the Probation Officer for schooling, training or
other acceptable reasons.

6)

The defendant shall notify the Probation Officer at least ten days prior to any change in residence or employment.

7)

The defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer
any controlled substance or any paraphernalia related to any controlled substance, except as prescribed by a physician.

8)

The defendant shall not frequenl places where controlled substances are illegally sold, used, distributed, or administered.

9)

The defendant shall not associate with any persons engaged in criminal activity, and shall not associate with any person
convicted of a felony unless granted permission to do so by the Probation Officer.

10) The defendant shall permit a Probation Officer to visit him or her at any time at home or elsewhere and shall permit
confiscation of any contraband observed in.piain view of the Probation Officer.
11) The defendant shall notify the Probation Officer within seventy-two hours of being arrested or questioned by a law
enforcement officer.
12) The defendant shall not enter into any agreement to act as an informer or special agent of a law enforcement agency
without the permission of the Court.
13) As directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the
defendant's criminal record or personal history or characteristics and shall permit the probation officer to make such
notifications and to confirm the defendant's compliance with such notification requirement.

Case 3:09-cr-C)1267-FM: ^Document 281

Filed 01/12/2011

Page 5 of 7

AO 245 B fRev. 05/04VW.D.TX.1 - Supervised Release
Judgment-Page 5
Defendant: Rigoberto Melero Aguirre, aka: Rigo, TN: RIGOBERTO AGUIRRE MELERO
Case Number EP-09-CR-1267-FM<2)
14) If convicted of a sexual offense as described in 18 U.S.C. § 4042(c)(4), or has a prior conviction of a State or local offense
that would have been an offense as described in 18 U.S.C. § 4042 (c)(4) If a circumstance giving rise to Federal
jurisdiction had existed, the defendant shall participate in a sex offender treatment program approved by the probation
officer. Hie defendant shall abide by all program rules, requirements and conditions of the sex offender treatment
program, Including submission to polygraph testing, to determine if the defendant is in compliance with the conditions of
release. The defendant may be required to contribute to the cost of the services rendered (copayment) in an amount to be
determined by the probation officer, based on the defendant's ability to pay.
15) The defendant shall submit to an evaluation for substance abuse or dependency treatment as directed by the probation
officer, and if deemed necessary by the probation officer, (he defendant shall participate In a program approved by the
probation officer for treatment of narcotic addiction or drug or alcohol dependency which may include testing and
examination to determine if the defendant has reverted to the use of drugs or alcohol. The defendant may be required to
contribute to the cost of the services rendered (copayment) in an amount to be determined by the probation officer, based
upon the defendant's ability to pay.
16) The defendant shall submit to an evaluation for mental health counseling as directed by the probation officer, and if
deemed necessary by the probation officer, the defendant shall participate in a mental health program approved by the
probation officer. The defendant may be required to contribute to the cost of the services rendered (copayment) In an
amount to be determined by the probation officer, based upon the defendant’s ability to pay.
17) If the defendant is excluded, deported, or removed upon release from imprisonment, the term of supervised release shall
be a non-reporting term of supervised release. The defendant shall not illegally re-enter the United States, if the
defendant lawfully re-enters the United States during the term of supervised release, the defendant shall immediately
report in person to the nearest U.S. Probation Office.
18) If the judgment imposes other criminal monetary penalties, it Is a condition of supervision that the defendant pay such
penalties in accordance with the Schedule of Payments sheet of the judgment.
19) If the judgment imposes a fine, special assessment, restitution, or other criminal monetary penatties. it is a condition of
supervision that the defendant shall provide the probation officer access to any requested financial information.
20) If the judgment Imposes a fine, special assessment, restitution, or other criminal monetary penalties, it is a condition of
supervision that the defendant shall not incur any new credit charges or open additional lines of credit without the approval
of the probation officer unless the defendant is In compliance with the payment schedule.
Hie Court further adopts such of the following special conditions applied to the supervised person by the judge at the time of
sentencing:
1)

COMMUNITY CONFINEMENT: The defendant shall reside in a Community Corrections Center for a period of____
months to commence on
Further, once employed, the defendant shall pay 25% of his/her weekly gross
income for his/her subsistence as tong as that amount does not exceed the daily contract rate.

2)

HOME DETENTION: The defendant shall participate In the Home Confinement Program for a period of________
days/months. During this time the defendant shall remain at his/her place of residence except for employment and other
actlvitios approved In advance by the probation officer. The defendant shall maintain 8 telephone at his/her place of
residence without “call forwarding,* a “modem,* ’caller ID,' ‘call waiting,* or portable cordless telephones for the above
period. At the direction of the probation officer, the defendant shall wear an electronic monitoring device and follow
electronic monitoring procedures specified by the probation officer. The court further orders that the defendant shall pay
for the costs of Home Confinement, as directed by the probation officer.

• 3)

COMMUNITY SERVICE: The defendant shall perform___ hours of community service work without pay, at a location
approved by the probation officer, at a minimum rate of four hours per week, to be completed during the first ____
months of supervision.

:>

Case 3:09-cr-01267-FM

Document 281

Filed 01/12/2011

Page 6 of 7

AO 245 8 (Rev. 06/05)(W.D.TX.) ■ CMP

Judgment-Page 6
Defendant: Rigoberto Melero Aguirre, aKa: Rigo, TN: RIGOBERTO AGUIRRE MELERO
Case Number. EP-G9-CR-1287-FM(2)
CRIMINAL MONETARY PENALTIES/ SCHEDULE
The defendant shall pay the following total criminal monetary penalties in accordance with the schedule of payments
set forth. Unless the Court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal
monetary penalties is due during imprisonment. Criminal Monetary Penalties, except those payments made through Federal
Bureau of Prisons' Inmate Financial Responsibility Program shall be paid through the Clerk, United States Oistrict Court, 511 E.
San Antonio Street, Room 219 El Paso, Texas 79901.
The defendant shall roceive credit for all payments previously made toward any criminal monetary penalties imposed,

TOTAL:

Assessment

Fine

Restitution

§100.00

§1,000,000.00

$0

Special Assessment
It is ordered that the defendant shall pay to the United States a special assessment of §100.00. Payment of this sum
shall begin immediately.
- •*.
Fine
The defendant shall pay a fine of §1,000,000.00. Payment of this sum shall begin immediately.

■r- ’*•

• V*

If iho defendant make* a partial payment, each payoashatt receive an approximately proportioned payment, unless speeffiod otherwise In ins pnority order or
percentage payment column above. However, pursuant to 19 U.S'.C. § 36£M(i). sit rton-federal victims must be paid before the United States is paid.
It the fine Is not paid, the court may sentence the defendant to any sentence which might have been originally Imposed. See 18 U.S.C. §3914.
The defendant shall pay Interest on any f;ne or restitution of more than 92,800.00, unless the fine or restitution Is paid in full before the fifteenth day after the date of
the judgment, pursuant to 18 U.S.C. §3612(0. All payment options may bo subject to penalties for delinquency and default, pursuant to 18 U.S.C. §36l2(g).
Payments shaa be applied In bio following order (1) assessment (?) restitution principal, (3) restitution Interest, (4) fine principal, (5) community restitution, (6) fine
interest. (7) penalties, and (8} costs. Including cost of prosecution and court costs.
Findings for the total nmourn of tosses are required under Chapters 109A, no. 110A, and 113A of Title 18 for offenses committed on or after September 13. 1894,
but before April 23. iflaa.

>*
- '*•

V

Case 3:09-cr-01267-FM

" Document 281

Filed 01/12/201.1

Page 7 of 7

AO 245 B (Rev, 06/05)(W,Q.TX.) • Forfoiluro
Judgment-Page 7
Defendant: Rigoberto Melero Aguirre, aka: Rigo, TN: RIGOBERTO AGUIRRE MELERO
Case Number EP-09-CR-1267-FM(2)
FORFEITURE
‘■'HU

r‘i.

The defendant is ordered to forfeit the following property to the United States:
1. Real property, located at 1109 Meadows Road, Canutillo, TX, whose legal description is Lot 6, Block 1, WESTVIEW
HEIGHTS, El Paso County, Texas, according to the map thereof on file In Book 59, Page 9 of the Plat Records of
El Paso County, Texas.

i
I

2. Real property located at 4920 Garry Owen Road, El Paso, TX, whose legal description is Lot 6, Block 1 TERRY
ALLEN ADDITION, an Addition to the City of El Paso, El Paso County, Texas according to the map thereof on
file in Book 3, Page 6. Plat Reconteof El Paso County, Texas, Save and Except a 0.029 acre tract.

t

!

i

!
V.

;

•3U

